                  FEDERAL BUREAU OF PRISONS
                 ANNUAL FINANCIAL STATEMENT
                       FISCAL YEAR 2009

                  OFFICE OF THE INSPECTOR GENERAL
                     COMMENTARY AND SUMMARY

      This audit report contains the Annual Financial Statement of the
Federal Bureau of Prisons (BOP) for the fiscal years (FY) ended
September 30, 2009, and September 30, 2008. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the BOP’s audit
in accordance with U. S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2009 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and results of
the entity’s operations in conformity with U.S. generally accepted accounting
principles. For FY 2008, the BOP also received an unqualified opinion on its
financial statements (OIG Report No. 09-14).

      KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2009, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified one significant deficiency
related to vulnerabilities identified in the BOP’s information system controls
environment, which has been reported annually since FY 2002. Specifically,
improvements are needed in the BOP’s logical access controls and system
software general controls. No instances of non-compliance with laws and
regulations or other matters were identified during the audit.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquires of its representatives. Our review, as differentiated
from an audit in accordance with U.S. generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the BOP’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the BOP’s financial
management systems substantially complied with the Federal Financial
Management Integrity Act of 1996, or conclusions on compliance with laws
and regulations. KPMG LLP is responsible for the attached auditors’ reports
dated November 3, 2009, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply,
in all material respects, with U.S. generally accepted government auditing
standards.
